                                        STATEMENT OF

                               DR. CHRISTINE C. BOESZ
                                 INSPECTOR GENERAL
                            NATIONAL SCIENCE FOUNDATION

                                           before the

                           U.S. HOUSE OF REPRESENTATIVES
                                COMMITTEE ON SCIENCE
                            SUBCOMMITTEE ON RESEARCH

                                         March 9, 2005

        Chairman Inglis, Ranking Member Hooley, and distinguished members of the
Subcommittee, I appreciate the opportunity to appear before you today. As you know,
the National Science Foundation (NSF) is an innovative agency dedicated to
maintaining American leadership in discovery and the development of new technologies
across the frontiers of scientific and engineering research and education. As the
scientific enterprise changes and research evolves, new challenges arise.
Consequently, my office has worked closely with the National Science Board and NSF
management to identify and begin to address issues that are important to the success
of NSF achieving its goals.

        As Inspector General, I enjoy a unique perspective on NSF activities and the
research and education enterprise in general. My office is responsible for promoting
economy, efficiency, and effectiveness in administering NSF’s programs; detecting and
preventing fraud, waste, and abuse within NSF or by individuals that submit proposals
to or receive funding from NSF; and identifying and helping to resolve cases of research
misconduct. My office also engages in outreach activities in an effort to build
partnerships within the agency, other Federal agencies, NSF awardees, and the
scientific, engineering, and education communities. These partnerships assist us in
resolving audit and investigation matters effectively and promoting education on
research misconduct and award administration issues. In addition to reports on
individual audits and investigations, the two primary methods for formally
communicating with the National Science Board, NSF management, and the Congress
are through our Semiannual Reports and annual management challenges letters.

                                   Management Challenges

         This past October, my office conducted its annual assessment of the most
serious management and performance challenges facing NSF. 1 My office compiled a
list of eleven management challenges based on our audit work, general knowledge of

1
 Memorandum from Christine C. Boesz, Inspector General, National Science Foundation, to Warren
Washington, Chairman, National Science Board, and Arden Bement, Acting Director, National Science
Foundation (Oct. 15, 2004) (on file with NSF OIG).


                                                                                         Page 1 of 9
the agency’s operations, and the evaluative reports of others, such as the Government
Accountability Office and NSF’s various advisory committees, contractors, and staff.
These challenges, which are essentially unchanged from our previous assessment, 2 fall
into five general categories: 1) strategic management of agency resources, 2) improved
financial performance, 3) expanded electronic government, 4) budget and performance
integration, and 5) program-specific challenges.

       I believe that the two most important challenges are related to the first two of
these general categories, which encompass both the short-term and long-term needs of
NSF. The strategic management of NSF resources is an ongoing and pressing issue.
NSF needs to devote more resources and attention to making business and process
improvements, while at the same time, planning for its future workforce needs.
Although advances in technology have enhanced the workforce’s productivity, NSF’s
rapidly increasing workload has forced the agency to become increasingly dependent
on temporary staff (e.g., rotators and visiting scientists) and contractors to handle the
additional work. NSF’s efforts in the past to justify an increase in staff have been
impeded by the lack of a comprehensive workforce plan that identifies workforce gaps
and outlines specific actions for addressing them. Without such a plan, NSF cannot
determine whether it has the appropriate number of people or the types of
competencies necessary to accomplish its strategic goals. In 2002, NSF launched a
multi-year business analysis effort to address this challenge. To date, NSF has made
few decisions regarding implementation of a workforce plan. Without such a plan, NSF
is unable to assess the number and skill-level of rotators and other personnel needed to
carry out its work. Of particular concern is the need for resources to oversee NSF’s
large facility projects and carry out effective post award monitoring.

         Throughout my five years as Inspector General of NSF, my office has increased
its audit attention on matters related to NSF’s management and oversight of its large
facility project portfolio, which includes projects ranging from tens of millions to
hundreds of millions of dollars. In 2000 and 2002, my office issued reports critical of
NSF’s management of large infrastructure projects and made recommendations for
addressing this important piece of NSF’s research portfolio. 3 These recommendations
urged NSF to establish formal guidance for the programmatic and financial
management of large facilities, including full-cost tracking. An important aspect of
NSF’s plan to address these recommendations is the establishment of a Large Facility
Project (LFP) Office with responsibility for managing and overseeing large facility
projects. We reviewed the progress this Office is making in issuing project




2
  Memorandum from Christine C. Boesz, Inspector General, National Science Foundation, to Warren
Washington, Chairman, National Science Board, and Rita R. Colwell, Director, National Science
Foundation (Oct. 17, 2003) http://www.nsf.gov/oig/managementchallenges2004.pdf.
3
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF THE FINANCIAL MANAGEMENT OF
THE GEMINI PROJECT, Report No. 01-2-001 (Dec. 15, 2000); OFFICE OF INSPECTOR GENERAL, NATIONAL
SCIENCE FOUNDATION, AUDIT OF FUNDING FOR MAJOR RESEARCH EQUIPMENT AND FACILITIES, Report No. 02-
2-007 (May 1, 2002) (both on file with NSF OIG).


                                                                                     Page 2 of 9
management guidance and providing oversight of current projects. 4 The Office’s
progress has been slow and constrained by workload and staffing issues. Currently the
LFP Office has 2.5 full-time-equivalent employees responsible for overseeing 13
projects, each of which is estimated to receive an average of $100-400 million in total
Major Research Equipment and Facilities Construction appropriation funding. While the
LFP Office may have some access to other NSF staff to support its activities, I believe
that dedicated resources, specific to the Office’s oversight responsibilities, are essential.
In addition to resources, however, and perhaps more importantly, the LFP Office needs
organizational authority to independently oversee the management and construction of
these projects, and a high-level champion to ensure that authority. I believe Dr. Arden
Bement, as NSF Director, intends to be this champion. Further, the Office needs a
more structured management approach that includes a formal mission statement,
specific goals and measures, and a realistic staffing plan.

         Finally, over the past five years, we have focused increasing audit efforts on
addressing NSF’s challenge to effectively administer and oversee all of its
approximately 30,000 active grants and cooperative agreements once they have been
awarded. Since 2002, four consecutive independent audits of NSF’s financial
statements have cited weaknesses in the agency’s post-award monitoring of grantee
institutions as a significant deficiency. 5 Specifically, the auditors found that (1) NSF’s
current risk model for focusing its monitoring efforts does not adequately capture all
high-risk awardees; (2) NSF’s award-monitoring program does not address procedures
for both baseline and advanced monitoring depending on the financial risk of the award;
and (3) procedures for conducting on-site award monitoring at awardee institutions are
not adequate for the performance of an effective on-site review. In addition, in the FY
2004 audit, the independent auditor identified a second reportable condition: contract
monitoring. The auditors found that NSF does not adequately review public vouchers
submitted by contractors receiving advance payments to ensure that the reported
expenditures are proper and allowable under the contract. Without adequately
performing such procedures, misstatements and unauthorized expenditures may go
undetected.




4
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, SURVEY OF LARGE FACILITY PROJECTS
MANAGEMENT AND OVERSIGHT DIVISION, Report No. 05-6-002 (Dec. 29, 2004)
http://www.nsf.gov/oig/LFP_Report.pdf.
5
  KPMG Auditor’s Report, Fiscal Year 2004 National Science Foundation Financial Statement Audit (Nov.
12, 2004) (page III-45 of NSF’s 2004 Accountability Report found at
http://www.nsf.gov/pubs/2005/nsf0501/new_pdf/nsf0501.pdf); KPMG Auditor’s Report, Fiscal Year 2003
National Science Foundation Financial Statement Audit (Nov. 17, 2003) (page III-43 of NSF’s 2003
Accountability Report found at http://www.nsf.gov/pubs/2004/nsf0410/new_pdf/nsf0410final.pdf); KPMG
Auditor’s Report, Fiscal Year 2002 National Science Foundation Financial Statement Audit (Jan. 29,
2003) (page III-39 of NSF’s 2002 Accountability Report found at
http://www.nsf.gov/pubs/2003/nsf03023/pdf/nsf03023final.pdf); KPMG Auditor’s Report, Fiscal Year 2001
National Science Foundation Financial Statement Audit (Jan. 18, 2002) (page 71 of NSF’s 2001
Accountability Report found at http://www.nsf.gov/pubs/2002/nsf02097/nsf02097.pdf).


                                                                                          Page 3 of 9
       A recent audit by my office further highlights the need for increased post-award
monitoring. 6 My auditors found, over a five-year period, that approximately 47 percent
of the 151,000 annual and final project reports required by the terms and conditions of
NSF’s grants and cooperative agreements were either submitted late or not at all. Of
the 43,000 final project reports, 8 percent were never submitted, and 53 percent were
submitted, on average, 5 months late. Of the 108,000 annual progress reports, 42
percent were never submitted. This is due in part because of a lack of emphasis placed
on the importance of these reports, as evidenced by a lack of policies and infrastructure
that facilitate the staff’s ability to adequately address this key facet of award
administration. Moreover, in 74 of 571 occurrences over the past 5 years, NSF
provided additional funding, contrary to its own policy, to principal investigators who had
not submitted final project reports for prior awards.

       An effective post-award monitoring program should ensure that: awardees are
complying with award terms and conditions and federal regulations; adequate progress
is being made toward achieving the objectives and milestones of the funded research
project; and awardee expenditures listed on NSF’s financial statements represent costs
that are accurate and allowable. While NSF has taken some steps over the past three
years toward establishing a risk-based program for post-award monitoring of its grants,
more needs to be done. NSF must broaden its approach to award monitoring to go
beyond the relatively few high-risk awardees, 7 develop more effective award oversight
guidance, and increase the coordination between program and financial officers. We
have recently received and are currently reviewing an action plan from NSF that
proposes to address these additional award-monitoring activities.

        All of these challenges reflect areas of fundamental program risk that continue to
pose barriers to NSF’s accomplishment of its responsibilities. They will therefore require
ongoing attention from NSF management over the long term. While NSF recognizes
these challenges, progress has been slow and much remains to be done in order for
NSF to become a more successful organization and better serve the research and
education communities, which so heavily rely on it. In addition, NSF has results from its
own consulting study of post-award monitoring, which includes specific recommended
actions. 8 Although NSF now recognizes that both post-award and contract monitoring
activities are necessary, the next step is for NSF to more aggressively implement
concrete actions that will mitigate my concerns. I am particularly concerned over NSF’s
response to the independent auditors finding of a reportable condition in the area of
6
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF PROJECT REPORTING FOR NSF
AWARDS, Report No. 05-2-006 (Dec. 13, 2004) http://www.nsf.gov/oig/05-2-006Final.pdf.
7
  In FY 2004, NSF identified only 42 of its approximately 30,000 awards as “high risk” and did not include
some awards that were known to be high risk. For FY 2005, NSF has revised its risk assessment model
and has identified 252 awards as “high risk.” While the revised model captures a greater number of risky
awards, it still identifies less than 1 percent of NSF awards as “high risk.”
8
  NSF contracted with a consultant to assess NSF’s post-award monitoring processes. The results of this
assessment, issued in March 2004, indicated that while NSF made commendable efforts to develop
policies and procedures, it still faces a number of challenges to achieve effective administration. Further,
using other grant making agencies as a benchmark, the consultant identified gaps in NSF’s post-award
administration. IBM, Post-Award Monitoring Assessment (March 2004). NSF has not developed an
action plan to address the reported opportunities for improvement.


                                                                                                Page 4 of 9
contract monitoring. NSF’s corrective action plan suggests that my office, rather than
NSF staff, be responsible for the periodic testing of contract vouchers recommended by
the auditors. Voucher examination is a basic accounting function that resides with
management. As such, it would be inappropriate for my office to take on this
management function in light of our statutory independence.

       I realize that resources are needed for NSF to fully address these challenges.
However, I also believe that realignment of NSF’s management priorities should ease
the resource burden. The nature of the scientific research enterprise has changed over
the past few decades. Consequently, the programmatic and management challenges
facing NSF have changed. NSF's assessment of needed resources should address its
changing administrative challenges

                           Investigative and Audit Activities

        In our most recent Semiannual Report to the Congress for the six-month period
ending September 30, 2004, my office reported on numerous audit and investigative
activities. 9 During that time period, my office issued one interim and 10 final audit
reports that contained over $30 million in questioned costs, and made
recommendations that would improve grants management controls and oversight
processes at both NSF and its awardee institutions. We closed 38 civil/criminal cases
and 51 administrative cases and our investigations recovered $522,387. Three cases
were referred to the Department of Justice for criminal prosecution and 15
administrative cases were forwarded to NSF management for action during this period.
The following is a sample of investigations and audits that were reported in our most
recent Semiannual Report.

       Investigations

        My office investigates allegations of wrongdoing involving organizations or
individuals that receive awards from, conduct business with, or work for, NSF. In
investigating these allegations we assess their seriousness and recommend
proportionate action. When possible, we work in partnership with agencies and
awardee institutions to resolve these issues. Where appropriate, the results of these
investigations are referred to the Department of Justice or other prosecutorial authorities
for criminal prosecution or civil litigation, or to NSF management for administrative
resolution.

        For example, as we reported in our most recent Semiannual Report, the owner of
a company that received Small Business Innovation Research (SBIR) awards from NSF
and other Federal agencies pleaded guilty to mail fraud and tax evasion as a result of
our investigative efforts. The owner sent a progress report to NSF for his SBIR award
that included research previously conducted by his company under an Air Force SBIR
award. He also used Federal SBIR funds to pay for personal expenses, such as repairs

9
 OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, SEMIANNUAL REPORT TO THE CONGRESS
(September 2004) http://www.nsf.gov/pubs/2004/oigsept2004/oig2004sept.pdf.


                                                                                   Page 5 of 9
and improvements to his home, thereby evading over $93,000 in income tax on his
personal tax return for 1999. The total loss of Federal funds related to the subject’s
fraudulent scheme is estimated at $1.4 million. Based on the guilty plea and our
recommendation, NSF recovered $120,000 of its funds that it withheld from the NSF
grant pending the outcome of our investigation. We also recommended that NSF
exclude through debarment the owner and his company from receiving funds from any
Federal agency.

        One of the more unique areas of investigation for my office is in the realm of
research misconduct, specifically falsification of data, fabrication of results, and
plagiarism. Research misconduct strikes at the core of NSF's mission, and is a special
concern for my office. Although there is a strong sense of integrity within the scientific
and engineering research communities, my office often receives allegations that result
in misconduct findings. For example, after receiving an allegation that a postdoctoral
scientist fabricated and falsified data in a published research paper, my office concluded
that the researcher knowingly and intentionally fabricated data in multiple analyses to
make it appear that replicate experiments had been completed when in fact only a
single analysis had been performed. The scientist’s actions ultimately led to the
retraction of the entire publication in which the fabricated and falsified data appeared.
We recommended that NSF make a finding of research misconduct against the subject
and prohibit him from receiving Federal funds, otherwise known as debarment, for two
years.

        In addition, my office recommended to NSF that it take action to protect Federal
interests by debarring a researcher for two years for his fabricating the existence of and
citations for two manuscripts referenced in his two NSF awards. An investigation by the
researcher’s university determined that he provided false biographical information as
part of his NSF proposals. The researcher cited two manuscripts as “submitted to” two
prominent journals, and also referenced a “submitted” manuscript within the text of the
proposal for his NSF award. However, our investigation revealed that those manuscripts
did not exist. The investigation also identified a pattern of misrepresentation by the
researcher that extended over a 10-month period.

       While the majority of our investigations involve individual actions, some involve
entire organizations. For example, my office received a complaint that a university was
charging a 5% surcharge to NSF awards for technical support salaries. We initiated an
investigation and worked with the university to review technical support charges to NSF
awards. Although we found no evidence of fraud, the university restored $364,539 to
NSF for technical support expenses that were erroneously charged to its NSF awards. 10
As a result of our investigation, the university changed its policies and procedures to
ensure that technical support is charged appropriately to Federal awards. The university
also identified $518,993 of technical support charges that had been wrongfully charged
to awards from 12 other Federal agencies. We notified the other Federal agencies of

10
  Generally, technical support costs can be charged to Federal grants as direct costs only for particular
services provided for particular grants; otherwise such costs constitute administrative support services
costs that are included in the university’s indirect cost rate.


                                                                                                Page 6 of 9
this issue and obtained a commitment from the university to work with each of them to
resolve these overcharges.

       Audits

       Our audit activities have two primary thrusts that often complement each other.
We conduct financial audits of NSF's awards and awardee institutions to determine
whether costs claimed by awardees are allowable, reasonable, and were incurred for
the benefit of NSF’s award. These audits also seek to identify weaknesses in
awardee’s controls in accounting for and in administering their NSF awards to ensure
that NSF funds are spent properly. In addition, we conduct internal audits, which are
reviews of selected NSF programs and operations that provide policy makers and
management with an independent appraisal of whether desired results and objectives
are achieved efficiently, economically, and in accordance with prescribed laws,
regulations, policies, and procedures.

         Recent examples of both these types of audits include an audit of a foreign treaty
organization that, since 1996, has received $16.4 million in NSF awards for global
change research. 11 The audit found that NSF, on behalf of the United States, is funding
a disproportionate share of the organization’s total costs. The U.S. contribution, which
was initially expected to comprise 25 percent of the organization’s total funds, actually
represents 87 percent of its income from 1996 to 2003. This occurred because 18 other
member countries did not provide research and operational contributions in the amounts
originally committed. As a result, the foreign organization has average annual
expenditures of only $2.6 million or 82 percent less than expected, thereby impeding its
ability to achieve its research goals. Additionally, the organization has not properly
monitored its 14 research subawards valued at $10.3 million. This resulted in serious
problems with two subawards that can not adequately support their $1.1 million of
claimed costs. Given the lack of financial support by other member countries, we
recommended that NSF work with the foreign organization’s governing bodies to
promote and oversee fundraising activities; re-assess the organization’s mission, goals,
and staffing levels if additional funding is not obtained; and ensure that the organization
establishes written subaward management policies and procedures. Finally, we
recommended that NSF cease providing additional research awards to the organization
until it has developed and implemented written monitoring procedures to ensure its
subawardees are properly accounting for and managing NSF grant funds. NSF has
agreed with the OIG recommendations and is implementing actions to address them.

        My office also recently completed another audit of a foreign organization
identifying similar award administration issues. 12 This audit found that NSF, along with
three other Federal agencies, did not establish adequate grant agreements requiring the

11
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF INTER-AMERICAN INSTITUTE
FOR GLOBAL CHANGE RESEARCH, Report. No. 04-2-007 (Sept. 30, 2004) http://www.nsf.gov/oig/IAI-
GCR.pdf.
12
   OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF UNITED STATES-MEXICO
FOUNDATION FOR SCIENCE, Report. No. 05-2-005 (Dec. 8, 2004) http://www.nsf.gov/oig/USMFS05.pdf.


                                                                                        Page 7 of 9
foreign organization to comply with statutory funding requirements as a condition for
receiving US monies for the organization’s research endowment fund. Consequently,
the organization did not provide 45 percent of its required matching contribution
($5 million) or implement adequate financial controls to account for and administer
almost $11 million in US funds. We recommended that as the largest U.S. contributor,
NSF bring these concerns to the attention of the President’s Office of Science and
Technology Policy (OSTP) in order to facilitate a coordinated U.S. effort to secure
corrective actions on the part of the foreign organization. While NSF responded
favorably to the audit report, it does not agree that it should take a leading role in
coordinating corrective actions for the entire U.S. Government. Nevertheless, NSF
does generally agree to implement the remaining audit recommendations to secure
improved financial controls over its own contributions to the foreign organization. It is
my opinion that NSF should take the lead to bring these matters to OSTP in order to
coordinate the U.S. interests in obtaining the needed corrective actions from the foreign
organization.

        As another example, at NSF’s request, my office contracted with the Defense
Contract Audit Agency (DCAA) to perform a financial audit of NSF’s Antarctic Support
Services Contractor. 13 This contractor is NSF’s largest, providing logistics and support
services estimated at approximately $1.1 billion over ten years. In September 2004,
DCAA staff reported on the interim results of the first phase of this audit. Of the $363
million total costs claimed by the Contractor for the three-year period ending December
31, 2002, the auditors questioned $29.2 million because the Contractor improperly billed
indirect costs to the contract. 14 The auditors also questioned $6.7 million because the
Contractor claimed indirect costs that exceeded the limitations specified in the contract
agreement. The remaining phases of the Antarctic Services Contract audit will include
a review of the Contractor’s internal controls for administering, monitoring, and
accounting for the NSF contract funds and a review of the direct costs and remaining
indirect costs charged to the contract through December 31, 2004.

        As a final example, my office conducted an internal, or performance audit of the
Math and Science Partnership (MSP) Program. 15 In FYs 2002 and 2003, NSF awarded
a total of $436.6 million for 35 comprehensive and targeted awards under this program.
The audit objective was to determine the effectiveness of a sample of MSP projects’
evaluation methods and measures to assess the impact of the intervention strategies on
student achievement. This audit reviewed nine partnership projects funded in FY 2002
and found that five had effective evaluation plans designed to evaluate, define, and

13
   OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF RAYTHEON POLAR SERVICES
COMPANY’S INDIRECT COSTS CLAIMED FOR FISCAL YEARS 2000 TO 2002, Report. No. 04-1-010 (Sept. 30,
2004) (on file with NSF OIG).
14
   Specifically, the Contractor claimed indirect costs as direct costs of the contract, including $8.6 million
related to home and corporate office costs, $5.7 million related to facilities costs, $3.4 million related to
human resources costs, $2.7 million related to financial management costs, and over $700,000 related to
sign-on bonus costs.
15
   OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF NSF’S
MATH AND SCIENCE PARTNERSHIP PROGRAM, Report. No. 04-2-003 (May 14, 2004)
http://www.nsf.gov/oig/mspprogram.pdf.


                                                                                                  Page 8 of 9
measure the impact of the intervention strategies, activities and outcomes on student
achievement in math and science. While the remaining four projects did not address all
the elements for an effective evaluation process, with appropriate guidance and
monitoring NSF could ensure that each partnership had an effective evaluation process.

        Through these audits, and others like them, my office is able to make
recommendations to NSF management aimed at correcting specific problems found
with programs and awards. For example, as a result of the audit of the MSP program,
NSF convened a workshop of subject matter experts to prepare an evaluation statement
for current and future MSP projects. The results of these audits and others help to
inform our assessment of the most critical challenges facing NSF, and help my office
focus its future audit efforts.


       Chairman Inglis, this concludes my written statement. Thank you for the
opportunity to share this information with you. I would be happy to answer any
additional questions you or other members of the Subcommittee may have, or to
elaborate on any of the issues that I have addressed today.


                                 Contact Information

      For information about this statement, please contact Dr. Christine C. Boesz at
703-292-7100 or cboesz@nsf.gov.




                                                                              Page 9 of 9
